                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

Case Numbe't: 1-1107003~                                                                     Page 1 of 1



                We received ~ complaint alleging that a former NSF Program Officer1 who had worked at
         NSF under the Intergovernmental Personnel Act (IPA), claimed to improperly influence an
         award2 to his homeinstitution. 3

                 We reviewed the grant file and found that the proposal was awarded after a peer review
         panel highly rated the proposal. We also found that conflict between the former NSF Program
         officer and his home institution was identified and appropriate actions were taken to exclude this
         individual from actions related to the proposal and subsequent award.

                    This case is cldsed-with no further action taken.




          2




NSF OIG Form 2 ( 11102)
